                                            Testimony
Before the Committee on Transportation and Infrastructure,
House of Representatives


              Amtrak Improvement Initiatives:
                 Sustained Attention and
                Effective Implementation
                     Keys to Success
                            Statement of Ted Alves
                               Inspector General
                   National Railroad Passenger Corporation


                              Wednesday, November 28, 2012

                                       10:00 a.m. EST


          Not releasable until 10:00 a.m. Wednesday, November 28, 2012


                                     OIG-T-2013-001
                                                                                            1



Good Morning Chairman Mica, Ranking Member Rahall, and Members of the
Committee:

Thank you for the opportunity to discuss some of our recent report recommendations
and the actions that Amtrak has taken in response. Over the last 2½ years, we have
issued 39 reports on a wide variety of Amtrak programs and activities (see appendix).

Today, in line with the hearing’s focus on Amtrak’s ongoing structural reorganization,
my testimony will center on reports related to improving Amtrak’s operational and
financial performance and the actions Amtrak has taken in response to them. The
reports contribute to one of Amtrak’s strategic goals—achieving financial and
organizational excellence.

Before I address those reports, however, it is important to note that over the last couple
of years, the Board of Directors and Amtrak management have taken several steps to
improve Amtrak’s operational, financial, and customer-service performance. The Board
of Directors plays a key role in ensuring that the company accomplishes the goals
established in the Passenger Rail Investment and Improvement Act of 2008 (PRIIA) in
an efficient and effective manner. The Board now has seven of the nine members
authorized by PRIIA. The Amtrak Board of Directors has also now been able to
reconstitute two important Board committees: the Audit and Finance Committee and
the Personnel Committee. The two reconstituted committees have provided the
process and structure to help the Board conduct oversight and ensure that management
is held accountable for instituting disciplined processes and achieving financial and
operational goals. With this structure, the Board now has greater capacity to fulfill its
governance responsibilities over Amtrak programs and operations.

Similarly, examples of key actions by management include Amtrak’s development of
the 2011–2015 Strategic Plan that was issued in November 2011. Amtrak notes that the
plan provides a comprehensive roadmap for evolving Amtrak into a company more
focused on the bottom line, and whose employees’ roles and efforts are in sync with
common goals. The plan sets forth (1) Amtrak’s vision, values, and leadership
philosophy; (2) factors that could affect goal achievement; (3) corporate strategies; and
(4) business line strategic plans. The organizational realignment initiative that is the
focus of today’s hearing is directly linked to the implementation of Amtrak’s strategic
plan. Other key management actions include hiring senior executives to lead
improvements in human capital management and information technology.
                                                                                                   2


The company is in the early stages of implementing many of these initiatives. Our
recent work shows that sustaining and effectively implementing these initiatives has
the potential to significantly reduce Amtrak’s reliance on federal support. Using a risk
management approach to improve management controls is also needed to help Amtrak
focus on improving financial results. The reports and recommendations I will discuss
today support and/or complement, and in some cases were a catalyst, for the
management improvement initiatives that the Board of Directors and the company
have undertaken.

RECOMMENDATIONS HAVE SUPPORTED AND
COMPLEMENTED IMPROVEMENT INITIATIVES

Overall, Amtrak has generally taken positive action on our recommendations; the
company has implemented many of them, and is in the process of addressing others.

Summarized below are our key recommendations addressing the areas of governance,
human capital management, information technology management, and train operations
and business management.

Governance
Office of Inspector General (OIG) governance work has focused on enhancing the
stewardship of company resources by evaluating senior leadership’s processes,
policies, and activities to identify areas in which corporate risk can be reduced and
governance can be improved. Our key recent reports on governance have addressed
strategic planning and enterprise risk management. As summarized below, our
recommendations were agreed to by the company and the recommendations on the
strategic plan have been implemented; the risk management recommendations are in
the process of being addressed.

    The need for Amtrak to have a meaningful strategic plan was first identified in a 2005
    report issued by the Government Accountability Office.1 Our August 2010 report
    found that although Amtrak had made various attempts to develop a strategic plan,
    none were successful.2 We also found that developing a strategic plan could assist
    Amtrak’s leadership in effectively aligning organizational efforts around a single
    vision and ensuring the effective use of resources. In summary, we recommended

1 Amtrak Management: Systemic Problems Require Actions to Improve Efficiency, Effectiveness, and
Accountability (GAO-06-145, October 4, 2005).
2 Amtrak’s Strategic Planning (Evaluation Report E-10-01, August 17, 2010).
                                                                                                        3


    that Amtrak develop a strategic plan utilizing a strategic planning process that
    incorporated the key elements of effective strategic planning. Amtrak agreed, and the
    plan was issued in November 2011.

    Amtrak’s Board of Directors, in March 2011, requested that we review and report on
    Amtrak’s corporate risk management framework and risk management processes.
    The Board stated that it wanted to better understand the company’s approach to
    managing risks. Specifically, the Board stated its belief that a risk management
    framework and process were critical governance practices that help private- and
    public-sector organizations provide assurance that financial, operational, and
    regulatory risks are understood and appropriately mitigated. The Board also
    recognized that operational and regulatory risks must be controlled and that a
    disciplined process must be in place to manage all significant risks that the company
    faces.

    Our work showed that Amtrak did not have a formal, coordinated, systematic
    enterprise-wide framework for identifying, analyzing, and managing risk.3 The
    company also lacks a sound system of management controls that encompasses
    policies, processes, people, and technology, and serves the needs of all stakeholders
    by directing and controlling activities with good business savvy, objectivity,
    accountability, and integrity. For too many programs at Amtrak, sound control
    systems do not exist; we believe that this is a systemic issue that needs to be
    strategically addressed on a company-wide basis as part of a risk management
    process.

    Amtrak senior executives agreed with the need to improve their risk management
    practices. The company then took initial steps toward addressing this issue by
    committing, in the 2011–2015 Strategic Plan, to establishing an enterprise risk
    management (ERM) framework based on industry best practices. In summary, we
    recommended that, in the long term, the Board of Directors and Amtrak’s President
    and CEO take action to develop and implement an ERM process for the entire
    organization, to include the Board. The Board Chairman and the President and CEO
    stated that it is imperative that the Board discuss our recommendations with an
    answer to the time, resources, and priority needed to make such a commitment. They
    said that once the Board has had an opportunity to understand the commitment this
    will take, guidance will be provided to management, and the company will provide
    the OIG with more detailed information about Amtrak’s plan to implement

3Amtrak Corporate Governance: Implementing a Risk Management Framework is Essential to Achieving Amtrak’s
Strategic Goals (OIG-A-2012-007, March 30, 2012).
                                                                                                  4


    enterprise risk management. We have discussed our views on the way forward with
    the Board and understand that the Board is in the process of determining how to
    address a risk management framework issue.

Human Capital Management

Amtrak employs approximately 18,000 agreement‐covered (union) employees and
approximately 3,000 non‐agreement‐covered (management) employees located
throughout the United States. Our work has focused on identifying opportunities for
Amtrak to improve the efficiency and effectiveness of its human capital management
policies and practices.

    Starting in 2009, we have issued a series of reports on human capital management to
    include training and employee development. Our most recent report (July 2011)
    found that only limited progress had been made in implementing our prior
    recommendations.4 As a result, Amtrak was continuing to suffer from outdated
    human capital management, training, and employee development processes that
    hindered its ability to perform effectively. In addition, Amtrak was increasingly at
    risk of encountering skills shortages as highly experienced, long- time employees
    retire.

    In summary, we recommended and Amtrak’s President and CEO agreed to (1) make
    improved human capital management, training, and employee development an
    Amtrak priority; and (2) direct the Chief Human Capital Officer to revise the Human
    Capital Action Plan to include actions that are responsive to our recommendations
    and with reasonable implementation time frames. A new Chief Human Capital
    Officer has been hired, and he has developed and is implementing an action plan to
    address our findings and recommendations.

Information Technology Management
Passenger railroad businesses are labor‐ and capital‐intensive; they rely increasingly
on modern information technology to improve labor and asset productivity and
deliver safe and reliable customer service. Our recent work in this area has included a
series of reports on the implementation of the Strategic Asset Management program.
The company has generally agreed with our recommendations; it has implemented
some and is in the process of implementing others. Most significantly, however, it did

4Human Capital Management: Lack of Priority Has Slowed OIG-Recommended Actions to Improve Human
Capital Management, Training, and Employee Development Practices (E-11-04, July 8, 2011).
                                                                                                             5


not agree with our recommendation to perform more testing before deploying a new
major system.

    Over the last couple of years we have issued several reports on Amtrak’s Strategic
    Asset Management program.5 The program is one of Amtrak’s highest-cost and most
    significant information technology enhancement efforts. At an estimated cost of more
    than $193 million, this program is expected to help Amtrak transform and improve
    key business areas; implement best practices; integrate business processes; and
    provide timely information for financial reporting, management decision-making,
    and the optimization of financial and operational performance. Amtrak agreed with
    and is implementing recommendations for improving system controls and other
    programmatic weaknesses. Yet one area in which Amtrak did not agree with our
    recommendation was the need for more testing prior to deploying the system.

    In our May 2012 follow-up report, we pointed out that although program managers
    anticipated a certain level of implementation issues, the number, significance, cost,
    and time needed to address them have all been greater than anticipated. The fact that
    significant issues continue to surface indicates that the system is not yet stable. As a
    result, the company was still dealing with adverse effects on business operations and
    financial performance some 17 months after deployment.

Train Operations and Business Management
Amtrak operates over 300 daily trains on over 21,000 miles of rails. It serves 528 stations
in 46 states, 3 Canadian provinces, and the District of Columbia. Our key reports in the
area of train operations and business management have addressed mechanical
maintenance, food and beverage service, the Americans with Disabilities Act (ADA),
and a series of reports on incentive and service payments to host railroads. In general,
the company has been responsive to our recommendations in the food and beverage
and invoice-review areas. However, in the area of mechanical maintenance and ADA,
implementation actions are in process.




5 Strategic Asset Management Program: Opportunities to Improve Implementation and Lessons Learned (OIG-E-
2012-012, May 31, 2012), Strategic Asset Management Program: Further Actions Should be Taken to Reduce
Business Disruption Risk (001-2011, June 2, 2011), and Strategic Asset Management Program: Controls Design
Is Generally Sound, But Improvements Can Be Made (105-2010, January 14, 2011).
                                                                                                           6


    In May 2012 we reported that Amtrak had made significant progress in improving its
    mechanical maintenance processes and procedures since our 2005 report on this
    issue.6 However, our work also showed that improvements in equipment
    performance have been uneven. Acela, which represents about 10 percent of
    Amtrak’s total fleet of equipment and was the first fleet to employ reliability-centered
    maintenance, has seen significant improvements in reliability and availability. These
    improved maintenance results have allowed Amtrak to deploy two additional Acela
    trainsets, generating over $50 million in additional revenue since the trains were put
    into service.

    In contrast, availability and reliability have remained the same or declined slightly
    for the remainder of Amtrak’s equipment. Compared with Acela’s trainset
    availability improvement of 14 percent, the availability of the rest of Amtrak’s
    equipment has stayed roughly the same; and compared with Acela’s reliability
    improvement of 11 percent, the rest of Amtrak’s equipment is, on average, less
    reliable than before.

    If the availability of the conventional fleets were improved to the level of the Acela
    equipment, Amtrak could provide the same level of service with over 120 fewer
    conventional cars and 45 fewer conventional locomotives than presently required.
    Based on the estimates in Amtrak’s Fleet Strategy,7 we calculated that this would save
    Amtrak almost $600 million in fleet procurement costs over the next 15 years.8

    In summary, we recommended that the Vice President, Operations, adopt the Acela
    maintenance practices for improving the performance of Amtrak’s conventional fleet.
    These practices are in the process of being implemented.

    We have issued two recent reports on Amtrak’s food and beverage program. Over
    the last 6 years, Amtrak's food and beverage service has incurred a direct operating
    loss of over $526 million. Losses in food and beverage have been a long-standing
    issue, requiring federal subsidies to support food and beverage operations. The
    company has agreed with our recommendations in this area.




6 Mechanical Maintenance: Improved Practices Have Significantly Enhanced Acela Equipment Performance and
Could Benefit Performance of Equipment Company-wide (OIG-E-2012-008, May 21, 2012).
7 Amtrak Fleet Strategy (Version 2), February 2011.

8 These savings do not account for any additional costs potentially required to achieve this improved

level of equipment availability.
                                                                                                              7


    In a September 2012 report,9 we identified two areas in which food and beverage
    program management could be improved—accountability for program results and
    program-wide planning. We believe these management weaknesses stemmed from a
    fragmented program management structure. Specifically, food and beverage
    activities were being carried out by two departments. The Marketing and Product
    Development Department managed commissary and support operations, while the
    Transportation Department managed on-board service personnel and their activities
    were not well-coordinated.

    On July 19, 2012, the Vice President, Operations, announced the establishment of a
    Chief of Customer Service position within the Transportation Department. The Vice
    President later stated that the Chief of Customer Service would have accountability
    for improving Amtrak’s food and beverage service program. Marketing and Product
    Development’s food and beverage service activities were transferred to Operations
    on October 1, 2012.

    Further, Amtrak has taken action or has plans to address the three recommendations
    contained in our June 2011 report.10 First, as recommended, Amtrak has established a
    loss-prevention unit and has plans to develop an internal control action plan. Second,
    Amtrak’s President and CEO, as we recommended, has agreed that Amtrak will
    conduct a test of cashless sales. Finally, also as recommended, the Vice President,
    Operations, agreed that Amtrak will develop a 5-year plan for reducing its direct
    operating losses.

    ADA became law in 1990 and required that intercity rail stations be made accessible
    to persons with disabilities by July 31, 2010. There are 482 Amtrak-served stations
    that are required to be ADA-compliant. Since 1990, Amtrak had made limited
    progress in making the stations it serves ADA-compliant.

    Our September 2011 report showed that while Amtrak had developed an October
    2010 updated plan for ADA compliance, gaps continued to exist.11 The underlying
    cause of the limited program progress and planning weaknesses had been the




9 Food and Beverage Service: Initiatives to Help Reduce Direct Operating Losses Can Be Enhanced by Overall Plan
(OIG-A-2012-020, September 7, 2012).
10 Food and Beverage Service: Further Actions Needed to Address Revenue Losses Due to Control Weaknesses and

Gaps, (Report No. E-11-03, June 23, 2011)
11 Americans with Disabilities Act: Leadership Needed to Help Ensure That Stations Served by Amtrak Are

Compliant (Report No. 109-2010, September 29, 2011).
                                                                                                              8


      program’s fragmented management and lack of accountability for results. Seven
      departments were involved in program management, with no one office or official
      held accountable for results.

      In summary, we recommended that Amtrak address the program’s fragmented
      management structure and lack of accountability for results, weaknesses in program
      cost estimates, and gaps in the ADA-compliance plan. Amtrak generally agreed with
      our recommendations and said that the final decision for programmatic
      responsibility will be reevaluated as the corporation is aligned with its soon to be
      released strategic plan.

      Since 1995, we have issued a series of reports identifying more than $83 million in
      overpayments on inaccurate invoices from host railroads. These inaccurate invoices
      for on-time-incentive payments and services went undetected because of weaknesses
      in Amtrak’s invoice-review processes.12

      We have recommended that Amtrak make needed improvements to the host railroad
      invoice administration-review process. Amtrak agreed and in October 2010, the
      group responsible for reviewing host railroad monthly invoices and approving them
      for payment was moved from the Transportation Department to the Finance
      Department, reporting to the Chief Financial Officer. This organizational change was
      made in response to the recommendations to provide separation of duties between
      the invoice review group and the group responsible for negotiating and preparing
      host railroad agreements. Also, over the past year the company has increased staffing
      for that unit and developed detailed invoice policy and review procedures. These
      actions should facilitate complete and thorough invoice reviews prior to payment.
      Also, the company recently entered into a settlement that provided Amtrak with
      about $24 million in credits and cash payments.

                                                     -----



In conclusion, the keys to improving the efficiency and effectiveness of Amtrak’s
operations and service are (1) sustaining and fully implementing its ongoing strategic
initiatives and (2) continuing to develop and implement new initiatives, including a risk
management framework to continuously improve the efficiency and effectiveness of its
operations. Such a sustained focus should, in turn, reduce the amount of federal funds
that Amtrak needs. In that regard, my office will continue to identify opportunities to

12   Amtrak Invoice Review: Undetected Errors Resulted in Overpayments (OIG-A-2012-019, September 5, 2012).
                                                                                         9


sustain those efforts, follow up on the company’s plans for implementing an enterprise
risk management framework, and identify new improvement opportunities.



Mr. Chairman, in closing, I want to thank the Committee for its support of the Amtrak
OIG. This concludes my testimony, and I would be glad to answer any questions that
you or other members of the Committee may have at this time.
                                                                                 10


Appendix
        Audit and Evaluation Reports Issued Since January 1, 2010
Report
Number         Report Title                                    Issue Date
OIG-A-2012-      Annual Financial Statement Audits:
017              Observations for Improving Oversight of the         September 27,
                 Independent Public Accountant                               2012
OIG-E-2012-23    Railroad Safety: Amtrak is Not Adequately
                 Addressing Rising Drug and Alcohol Use by           September 27,
                 Employees in Safety-Sensitive Positions                     2012
OIG-A-2012-      American Recovery and Reinvestment Act:
021              Some Questioned Invoice Charges and Minimal
                 Benefit from Duplicative Invoice-Review             September 21,
                 Process                                                     2012
OIG-A-2012-      Food and Beverage Service: Initiatives to Help
020              Reduce Direct Operating Losses Can Be
                 Enhanced by Overall Plan                         September 7, 2012
OIG-A-2012-      Amtrak Invoice Review: Undetected Errors
019              Resulted in Overpayments                         September 5, 2012
OIG-A-2012-      Claims Program: Use of Best Practices Would
016              Strengthen Management Controls                     August 14, 2012
OIG-A-2012-      Human Capital Management: Weaknesses in
014              Hiring Practices Result in Waste and
                 Operational Risk                                      July 19, 2012
OIG-A-2012-      On-Time-Performance Incentives: Inaccurate
013              Invoices Were Paid                                   June 29, 2012
OIG-E-2012-012   Strategic Asset Management Program:
                 Opportunities to Improve Implementation and
                 Lessons Learned                                      May 31, 2012
OIG-E-2012-008   Mechanical Maintenance: Improved Practices
                 Have Significantly Enhanced Acela Equipment
                 Performance and Could Benefit Performance of
                 Equipment Company-Wide                               May 21, 2012
OIG-A-2012-      Amtrak Corporate Governance: Implementing a
007              Risk Management Framework is Essential to
                 Achieving Amtrak's Strategic Goals                  March 30, 2012
OIG-E-2012-009   Human Capital Management: Controls Over the
                 Use of Temporary Management Assignments
                 Need Improvement                                    March 28, 2012
OIG-E-2012-010   Acela Car Purchase: Future Revenue
                 Estimates Were Initially Overstated                 March 28, 2012
OIG-A-2012-      Incurred-Cost Contract Audit: Contract
006              Modification Charges for Extended Indirect
                 Overhead Costs Not Supported                     February 17, 2012
                                                                             11


Report
Number        Report Title                                        Issue Date
OIG-A-2012-   Amtrak Invoice Review: Inaccurate Invoices
005           Were Paid, But Progress is Being Made to
              Improve the Invoice-Review Process              February 16, 2012
OIG-A-2012-   On-Time-Performance Incentives: Inaccurate
004           Invoices Were Paid Due to Weaknesses in
              Amtrak's Invoice-Review Process                 February 15, 2012
OIG-A-2012-   Wireless Network Security: Internal Controls
003           Can Be Improved                                 December 7, 2011
OIG-A-2012-   Incurred-Cost Contract Audit: Bridge
002           Construction Modification Settlement
              Agreement Cost is Adequately Supported          November 7, 2011
OIG-A-2012-   Passenger Rail Investment and Improvement
001           Act of 2008: Amtrak Has Made Good Progress,
              but Continued Commitment Needed to Fully
              Address Provisions                              October 26, 2011
109-2010      Americans with Disabilities Act: Leadership
              Needed to Help Ensure That Stations Served         September 29,
              By Amtrak Are Compliant                                    2011
009-2011      Acela Car Purchase Draft Request for
              Proposal: Additional Requirements and Pre-
              Award Audit Clause Needed to Help Assess           September 21,
              Proposed Cost and Price                                    2011
E-11-04       Human Capital Management: Lack of Priority
              Has Slowed OIG-Recommended Actions to
              Improve Human Capital Management, Training,
              and Employee Development Practices                   July 8, 2011
E-11-03       Food and Beverage Service: Further Actions
              Needed to Address Revenue Losses Due to
              Control Weaknesses and Gaps                        June 23, 2011
908-2010      American Recovery and Reinvestment Act:
              Infrastructure Improvements Achieved but Less
              than Planned                                       June 22, 2011
914-2010      American Recovery and Reinvestment Act:
              Fewer Security Improvements than Anticipated
              Will be Made and Majority of Projects Are Not
              Complete.                                          June 16, 2011
001-2011      Strategic Asset Management Program: Further
              Actions Should be Taken To Reduce Business
              Disruption Risk                                     June 2, 2011
403-2010      On-Time-Performance Incentives: Inaccurate
              Invoices Were Paid Due to Long-standing
              Weaknesses in Amtrak's Invoice-Review
              Process                                             April 21, 2011
                                                                          12


Report
Number     Report Title                                         Issue Date
E-11-02    Evaluation of Amtrak’s FY 2010 Fleet Strategy:
           A Commendable High-Level Plan That Needs
           Deeper Analysis and Planning Integration           March 31, 2011
E-11-01    Operation RedBlock: Actions Needed to
           Improve Program Effectiveness                      March 15, 2011
105-2010   Strategic Asset Management Program Controls
           Design Is Generally Sound, But Improvements
           Can Be Made                                      January 14, 2011
219-2010   Price Proposal Audit: Amtrak Should Negotiate
           a Price Adjustment to a Major Acquisition
           Contract                                         January 12, 2011
504-2009   Incurred Cost Audit: Amtrak’s Track
           Replacement and Related Improvements                December 22,
           Contract                                                   2010
503-2009   Incurred Cost Audit: Amtrak’s Design/Build          December 13,
           Improvements Contract                                      2010
508-2009   Questionable Contract Language Related to
           Interest Payable Under Kiewit Contract C069-
           93228 Sounder Preventive Maintenance Track
           Replacement and Related Improvements,
           Seattle, WA And Kiewit Contract C069-06834
           South End Track and Related Improvements         December 2, 2010
407-2003   BNSF On-Time Performance Incentives:
           Inaccurate Invoices and Lack of Amtrak             September 24,
           Management Review Lead to Overpayments                       2010
E-10-01    Amtrak’s Strategic Planning                       August 17, 2010
912-2010   American Recovery and Reinvestment Act of
           2009: Assessment of Project Risks Associated
           with Key Engineering Projects                        May 14, 2010
406-2005   CSX On-Time Performance Incentives:
           Inaccurate Invoices and Lack of Amtrak
           Management Review Lead to Overpayments             March 30, 2010
104-2008   Improvements Needed in Vendor Repair and
           Return Process                                     March 23, 2010
                                                                                       13



           OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission        The Amtrak OIG’s mission is to

                                conduct and supervise independent and objective
                                audits, inspections, evaluations, and investigations
                                relating to Amtrak programs and operations;
                                promote economy, effectiveness, and efficiency
                                within Amtrak;
                                prevent and detect fraud, waste, and abuse in
                                Amtrak's programs and operations; and
                                review and make recommendations regarding
                                existing and proposed legislation and regulations
                                relating to Amtrak's programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony

To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                            Web:      www.amtrakoig.gov/hotline
                            Phone:    800-468-5469

Congressional and           E. Bret Coulson, Senior Director
Public Affairs              Congressional and Public Affairs

                            Mail:  Amtrak OIG
                                    10 G Street, N.E., 3W-300
                                    Washington, DC 20002
                            Phone: 202-906-4134
                            Email:  bret.coulson@amtrakoig.gov
